NO. 21-80
_______________
SUPREME COURT OF THE UNITED STATES
_______________
OUTDOOR AMUSEMENT BUSINESS ASSOCIATION,
INC.; MARYLAND STATE SHOWMEN'S ASSOCIATION,
INC.; THE SMALL AND SEASONAL BUSINESS LEGAL
CENTER; LASTING IMPRESSIONS LANDSCAPE
CONTRACTORS, INC.; THREE SEASONS LANDSCAPE
CONTRACTING SERVICES, INC.; NEW CASTLE LAWN
& LANDSCAPE, INC.,
Petitioners
v.
DEPARTMENT OF HOMELAND SECURITY; UNITED
STATES CITIZENSHIP & IMMIGRATION SERVICES;
DEPARTMENT OF LABOR; EMPLOYMENT &
TRAINING ADMINISTRATION; WAGE & HOUR
DIVISION,
Respondents
_______________
On Petition for Writ of Certiorari to the United States
Court Of Appeals for the Fourth Circuit
_______________
REPLY FOR PETITIONERS
_______________
R. Wayne Pierce, Esq.

Leon R. Sequeira, Esq.

The Pierce Law Firm, LLC
Counsel of Record
133 Defense Hwy, Suite 201
616 South Adams Street
Annapolis, Maryland 21401
Arlington, Virginia 22204
410-573-9955
(202) 255-9023
wpierce@adventurelaw.com
lsequeira@lrs-law.com
Counsel for Petitioners

TABLE OF CONTENTS
Page
Table of Authorities

iii

I. DOL Has Improperly Enlarged the Judgment
by Transforming the Question Presented
Without Filing a Cross-Petition

3

II. There Is a Direct Conflict between the
Fourth and Eleventh Circuits

9

III. This Case Is a Strong Vehicle for Resolving
the Conflicting Lower Court Approaches

10

Conclusion

12

ii

TABLE OF AUTHORITIES
Cases
Page
A.L.A. Schechter Poultry Corp. v. United States, 6
295 U.S. 495, 551 (1935) (Cardozo, J.,
concurring)
American Bus Ass'n v. Slater, 231 F.3d 1, 6 n. 1
(D.C. Cir. 2000)

11

Bray v. Alexandria Women's Health Clinic, 506
U.S. 263, 280 n. 10 (1993)

4

Chevron U.S.A., Inc. v. Natural Resources
Defense Council, Inc., 467 U.S. 837, 842-44
(1984)

9

Chicago Teachers Union v. Hudson, 475 U.S.
292, 300 (1986)

10

Cutter v. Wilkinson, 544 U.S. 709, 719 n. 7
(2005)

4

Darr v. Burford, 339 U.S. 200, 227 (1950)
(Frankfurter, J., dissenting)

11

ETSI Pipeline Project v. Missouri, 484 U.S. 495,
515-17 (1988)

8

G.H. Daniels III & Assocs., Inc. v. Perez, 626 F.
App’x 205, 209 n. 6 (10th Cir. 2015)

10

Gebser v. Lago Vista Indep. Sch. Dist., 524 U.S.
274, 280 (1998)

10

Industrial Union Dep't v. American Petroleum
Inst., 448 U.S. 607, 672 (1980) (Rehnquist, J.,
concurring in judgment)

6

Panama Ref. Co. v. Ryan, 293 U.S. 388, 443,
440 (1935)
iii

5, 6

Cases
Reliance Elec. Co. v. Consumer Product Safety
Comm'n, 924 F.2d 274, 279 (D.C. Cir. 1991)

Page
5

Rush Prudential HMO, Inc. v. Moran, 536 U.S.
355, 364 (2002)

10

Thompson v. Keohane, 516 U.S. 99, 106 (1995)

10

Union Pac. R.R. Co. v. Surface Transp. Bd., 863
F.3d 816, 826 (8th Cir. 2017)

9

United Airlines v. Brien, 588 F.3d 158, 179 (2d
Cir. 2009)

4

United States ex rel. Accardi v. Shaughnessy,
347 U.S. 260, 266-67 (1954)

9

Statutes, Regulations and Rules
5 U.S.C. § 558 (b)

Page
8

5 U.S.C. §903(a)(5)

8

31 U.S.C. § 1535

8

8 C.F.R. § 103.5 (a) (2)

9

20 C.F.R. § 655.13 (c) (2)

9

80 Fed. Reg. 23443, (Apr. 28, 2015)

4

80 Fed. Reg. 24146, 24147, 24154 (Apr. 29,
2015)

5, 6

81 Fed. Reg. 43430, 43448 (July 1, 2016)

4

Sup. Ct. R. 15.2

2

Other Materials
S. Rep. No. 79-752, at 25 (Nov. 19, 1945)
35 Op. Att’y Gen. 15, 1925 U.S. AG Lexis 3, at
iv

Page
8
7

Other Materials

Page

*7 (1925)
B-156510 (Comp. Gen. Feb. 23, 1971)
Report of the Special Committee on Administrative Law,
61 Annu. Rep. A.B.A. 720, 780 (1936)

v

6, 8
7

NO. 21-80
_______________
SUPREME COURT OF THE UNITED STATES
_______________
OUTDOOR AMUSEMENT BUSINESS ASSOCIATION,
INC.; MARYLAND STATE SHOWMEN'S ASSOCIATION,
INC.; THE SMALL AND SEASONAL BUSINESS LEGAL
CENTER; LASTING IMPRESSIONS LANDSCAPE
CONTRACTORS, INC.; THREE SEASONS LANDSCAPE
CONTRACTING SERVICES, INC.; NEW CASTLE LAWN
& LANDSCAPE, INC.,
Petitioners
v.
DEPARTMENT OF HOMELAND SECURITY; UNITED
STATES CITIZENSHIP & IMMIGRATION SERVICES;
DEPARTMENT OF LABOR; EMPLOYMENT &
TRAINING ADMINISTRATION; WAGE & HOUR
DIVISION,
Respondents
_______________
On Petition for Writ of Certiorari to the United States
Court Of Appeals for the Fourth Circuit
_______________
REPLY FOR PETITIONERS
_______________

Petitioners filed this action challenging the
authority of DOL to issue H-2B regulations and
adjudicate labor certifications. Before the district
court, DOL claimed that whether it possessed
independent rulemaking authority did not have to be
1

decided. Pet. 9. Nevertheless, the Fourth Circuit
explicitly decided that DOL possessed independent
rulemaking authority. Yet DOL now declines to
defend that decision. Br. of Resp. 17 ("the question
of which agency's statutory authority supports the
jointly issued 2015 regulations … does not warrant
this Court's review."). Instead, DOL tells this Court
that its regulations are sound because they were
"jointly issued" with DHS, but DOL tells the public
that it has independent authority to issue
regulations, just as the Fourth Circuit determined.
Pet. 33. This has the redolence of a waffle.
Under penalty of waiver, see Sup. Ct. R. 15.2,
DOL's opposition fails to dispute the factual or legal
bases for the numerous compelling reasons
supporting certiorari review.
DOL ignores the
inconvenient fact that both the nondelegation
doctrine and a clear-statement rule required
Congress – not DHS – to clearly select DOL as
Congress's designated instrumentality to promulgate
legislative regulations for the H-2B program. There
is not a word in the opposition addressing the fact
that DOL promulgated the challenged regulations
despite DOL's longstanding policy that it was
disqualified from balancing the statutory goals at
stake. Pet. 30-31. Nor does DOL question that
Congress explicitly ruled out DOL's rulemaking and
adjudication with the original passage of the
immigration statute in 1952. DOL does not even
proffer a position on the important question of
statutory construction. Nor is there any dispute that
the 2015 DOL Rule affects a broad segment of
society, triggers exorbitant compliance costs, and
that the source of DOL's purported authority is rife
with confusion as reflected in numerous judicial
2

opinions. Even DOL's previous concession that it
cannot regulate without rulemaking or adjudication,
Pet. 35, merely underscores the importance of the
question presented.
Nor does DOL defend the correctness of the
Fourth Circuit's finding that DOL has independent
rulemaking authority, much less give additional
reasons to sustain that conclusion. Instead, DOL
pockets the outcome, ignores the holding, and
attempts to transform the question presented from
whether DOL has independent authority to whether
DHS has authority to "jointly promulgate" with DOL.
DOL then attempts to buttress that sleight-of-hand
by contending that there is no circuit split on the
new question, and that this case is a poor vehicle for
addressing the agencies' "joint action."
I. DOL HAS IMPROPERLY ENLARGED THE
JUDGMENT
BY
TRANSFORMING
THE
QUESTION PRESENTED WITHOUT FILING A
CROSS-PETITION
According to DOL, the question presented is
whether DOL and DHS were authorized to "jointly
promulgate" the 2015 DOL Rule. Br. of Resp. I. This
is one of DOL's conflicting theories of authority that
it asserts from time to time and which the trial court
characterized as part of DOL's "circular retreat from
one [theory] to the next." Pet. 81a. The trial court
easily rejected "joint rulemaking," concluding that
"DHS alone could [not] issue a rule that purports to
cover the Secretary of Labor and his subordinates,
and is published under DOL's title of the Code of
Federal Regulations." Pet. 94a. DOL did not crossappeal, and the Fourth Circuit did not address the
3

joint-rulemaking theory. See Pet. 42a (holding that
DHS did not redelegate authority to DOL).
Respondents failed to file a cross-petition to
pursue this separate issue of "joint action." The focal
point for this review must be the Fourth Circuit's
decision, not an issue that was not considered below.
See Bray v. Alexandria Women's Health Clinic, 506
U.S. 263, 280 n. 10 (1993) (the fact that the
respondent has the right to restate the question
presented "does not give [it] the power to expand the
questions presented as … Rule [24.2] itself makes
clear."). DOL's attempt to enlarge the judgment,
transform the question presented to an issue not
decided below, and raise its own serious
constitutional issue, should be avoided in "a court of
review, not of first view." Cutter v. Wilkinson, 544
U.S. 709, 719 n. 7 (2005).
DOL's transformative question is both
factually and legally unfounded.
There is no
evidence – other than the label that the Departments
chose to use – that these regulations were, in fact,
"jointly issued."1 And DOL's opposition does not
identify any statutory authority for its claim that
DHS and DOL may jointly promulgate legislative
regulations. See United Airlines v. Brien, 588 F.3d
158, 179 (2d Cir. 2009) (INA required INS and the
Secretary of State to issue regulations jointly, so INS
could not "amend the jointly enacted regulation on
its own"). Nor does DOL explain the unprecedented
To the contrary, the available evidence indicates that DOL
regarded the 2015 DOL Rule as solely its prerogative. See, e.g.,
80 Fed. Reg. 23443 (Apr. 28, 2015)(DOL unilaterally modified
the "jointly-issued" regulations one day before publication); 81
Fed. Reg. 43430, 43448 (July 1, 2016) (DOL unilaterally
modified the "jointly-issued" regulations after publication).
1

4

claim that DHS alone may authorize "jointly issued"
rules co-listing another agency – DOL, a mere
consultant – as an issuing agency when DHS
previously determined that DOL's participation in
the rulemaking was mere "surplusage," yet
"instructed" DOL to "separately establish" legislative
regulations governing the H-2B program. See DOL's
Mot. for Sum. Judg. 30 n. 20, 31-32, ECF No. 1021. A statement of rulemaking authority "should not
read like a detective mystery." Reliance Elec. Co. v.
Consumer Product Safety Comm'n, 924 F.2d 274, 279
(D.C. Cir. 1991).
In a rush to avoid Petitioners' nondelegation
challenge, DOL runs headlong into yet another
nondelegation issue by claiming the rulemaking was
the "joint action" of DOL and DHS. There is no
shortage of reasons for rejecting DOL's novel joint
action theory. Most importantly, it fails to resolve
whether DOL's rulemaking and adjudicative
authority are authorized by Congress directly or
redelegated by DHS. See Br. of Resp. 14 (DHS's
"requirement" that DOL issue regulations and
adjudicate labor certifications "was imposed by DHS,
acting alone").
Because an agency necessarily
operates under the same constitutional restrictions
placed on Congress by the nondelegation clause,
Panama Ref. Co. v. Ryan, 293 U.S. 388, 433 (1935),
DHS must "clearly" delineate DOL as a redelegatee
of DHS's authority, not imply that DOL has
independent authority. But DHS never provided an
explicit statutory citation authorizing DHS to
redelegate its power. Instead, DHS relies on the
rationale that DOL's rulemaking results in the "most
effective administration" of the H-2B program. 80
Fed. Reg. 24146, 24147 (Apr. 29, 2015). The most
5

that DHS has stated is that it was "permissible" for
DHS to "allow[ ]" DOL to issue regulations, 80 Fed.
Reg. at 24154, which suggests that DHS merely
conceded that DOL already had independent
rulemaking authority.
The restriction on redelegating governmental
functions, such as rulemaking,2 is rooted in the
nondelegation doctrine because agencies cannot
simply give away or share their authority. As
Justice Cardozo explained, grants of administrative
discretion must be "canalized within banks that keep
it from overflowing." Panama Ref. Co., 293 U.S. at
440 (1935) (Cardozo, J., dissenting). Accord A.L.A.
Schechter Poultry Corp. v. United States, 295 U.S.
495, 551 (1935) (Cardozo, J., concurring); Industrial
Union Dep't v. American Petroleum Inst., 448 U.S.
607, 672 (1980) (Rehnquist, J., concurring in
judgment) (broad delegation of exposure limits to
OSHA violated "the doctrine against uncanalized
delegations of legislative power").
Justice Cardozo's view and the early
development of what became the Administrative
Procedure Act precipitated the American Bar
Association's subsequent review of the delegation of
legislative power to administrative agencies. The
ABA identified several classifications of "extreme
example[s] of delegated legislative power," including
when Congress delegated rulemaking authority and
also extended to the agency "the power to
subdelegate that power, and to create, establish,
Administrative or governmental functions include rulemaking,
adjudication, and enforcement. See, e.g., B-156510 (Comp. Gen.
Feb. 23, 1971) <http://www.gao.gov/products/400043#mt=ereport>.
2

6

determine the character of, and discontinue, agencies
to exercise the subdelegated power." Report of the
Special Committee on Administrative Law, 61 Annu. Rep.
A.B.A. 720, 780 (1936).
The ABA judged this
classification was particularly dangerous because it
goes far beyond the delegation of power to make
rules of conduct. In [this] class, Congress gives up
its prerogative of determining what kind and
character of agency shall exercise the delegated
legislative power, and passes it over to an
executive official, leaving him free to use existing
agencies or to create new agencies, to follow any
pattern he chooses, to subdelegate and
redistribute the functions assigned to him as he
pleases, to fix the duties and salaries of individuals
and, in short, to do everything that Congress does
when it establishes a[n agency] ….
Id. at 780-81 (emphasis added).3
Despite this
acknowledged danger, DOL has not cited a statutory basis
for DHS to redelegate its rulemaking authority.
Even assuming that DHS "clearly" redelegated
authority to DOL, DOL's new question presented
implicates the administrative-function rule and its
anti-redelegation principle.
The administrativefunction rule is a statutory and constitutional
principle prohibiting an agency from redelegating
any power requiring the exercise of discretion unless
Congress has authorized it. See 35 Op. Att’y Gen. 15,
1925 U.S. AG Lexis 3, at *7 (1925).
The
The fact that the ABA ultimately expressed no view regarding
the constitutionality of this classification, 61 Annual Rep.
A.B.A. at 781, demonstrates just the sort of confusion
warranting certiorari review. The subsequent advent of the
clear-statement rule supports certiorari review to clarify this
important nondelegation issue.
3

7

Administrative Procedure Act prohibits one agency
from undertaking rulemaking or adjudication that
falls within the jurisdiction of another agency. 5
U.S.C. § 558 (b) ("A … substantive rule or order [may
not be] issued except within jurisdiction delegated to
the agency and as authorized by law."); S. Rep. No.
79-752, at 25 (Nov. 19, 1945)(agency may not
"undertake directly or indirectly to exercise the
functions of some other agency."). In addition, the
Reorganization Act prohibits redelegating functions
without express notice to and approval by Congress.
5 U.S.C. §903(a)(5). Further, interagency transfers
of "primary administrative functions" are also
prohibited by the Economy Act, 31 U.S.C. § 1535.
See, e.g., B-156510 (Comp. Gen. Feb. 23, 1971). And
as a matter of statutory construction, this Court has
prohibited interagency redelegation of authority
when doing so contravened the statute. See ETSI
Pipeline Project v. Missouri, 484 U.S. 495, 515-17
(1988) (statute provided that the Secretary of the
Interior may not enter into a contract to withdraw
water from a lake without approval of the Secretary
of the Army; the Secretary of Interior lacked
authority to withdraw water despite Army’s
acquiescence and an interagency agreement with
Army).
DOL is also wrong on the premise that the
source of its rulemaking and adjudicative authority
is an insufficient basis for granting certiorari. Br. of
Resp. 17. Even if "joint action" could legitimately
authorize DOL's rulemaking and adjudications, the
source of that authority is still critical. For example,
under Chevron, DOL was entitled to the deference
extended by the Fourth Circuit only if Congress itself
– not DHS – entrusted DOL with the authority to
8

administer the statute. See Chevron U.S.A., Inc. v.
Natural Resources Defense Council, Inc., 467 U.S.
837, 842-44 (1984). Thus, the source of DOL's
purported authority is likely outcome determinative
in this case. Further, a redelegatee steps into the
shoes of the redelegator within the scope of the
redelegation, see United States ex rel. Accardi v.
Shaughnessy, 347 U.S. 260, 266-67 (1954), and
complying with the confines of DHS's regulations
and practices places palpable restrictions on DOL's
otherwise independent actions. Compare 8 C.F.R. §
103.5 (a) (2) (DHS's review of denied petitions is de
novo) with 20 C.F.R. § 655.13 (c) (2) (DOL's review of
prevailing wage determinations is based solely upon
the record initially presented to the agency).
II.
THERE IS A DIRECT CONFLICT
BETWEEN THE FOURTH AND ELEVENTH
CIRCUITS
DOL takes the unusually-narrow view that
there is no circuit split on the question of DOL's
independent rulemaking authority because the
Eleventh Circuit's ruling that DOL likely lacks
independent authority was issued upon review of a
preliminary injunction. This is surely news to the
Fourth Circuit, which explicitly acknowledged the
circuit split. Pet. 32a. It must also be news to DOL
itself, which has similarly acknowledged that courts
have determined that DOL lacks independent
rulemaking or adjudicative authority. Pet. 13. It
must also be news to those courts that have applied
the Eleventh Circuit's ruling as a final judgment.
See, e.g., Union Pac. R.R. Co. v. Surface Transp. Bd.,
863 F.3d 816, 826 (8th Cir. 2017). The fact that
9

other appellate courts have blazed separate paths
interpreting the same statutory provisions, Pet. 3132, further shows the conflict is real, persistent, and
intolerable.
Given that a primary purpose of
certiorari is to achieve uniformity, Thompson v.
Keohane, 516 U.S. 99, 106 (1995), these
circumstances speak in favor of this Court's review.
Even if it was possible to conclude that this
circuit split on DOL's independent rulemaking
authority is reconcilable, the conflict and confusion is
still sufficiently clear and the case sufficiently
important that certiorari is warranted. See, e.g.,
Rush Prudential HMO, Inc. v. Moran, 536 U.S. 355,
364 (2002). There is no dispute that this important
statutory issue of DOL's authority is now subject to
numerous "divergent approaches," see Chicago
Teachers Union v. Hudson, 475 U.S. 292, 300 (1986),
or "varying approaches" among the lower courts, see
Gebser v. Lago Vista Indep. Sch. Dist., 524 U.S. 274,
280 (1998).
III. THIS CASE IS A STRONG VEHICLE FOR
RESOLVING THE CONFLICTING LOWER
COURT APPROACHES
Having won a judgment below that DOL has
independent rulemaking authority, after previously
losing that very issue in another circuit, it is
disingenuous for DOL now to suggest that this case
is a poor vehicle to resolve DOL's independent
authority because DOL has yet another rulemaking
theory that it wishes to deploy in its circular retreat.
Br. of Resp. 7 & 16. Under that approach, DOL will
always evade this Court's review merely by declaring
yet another of its "creative" theories. G.H. Daniels
10

III & Assocs., Inc. v. Perez, 626 F. App’x 205, 209 n. 6
(10th Cir. 2015) (explaining that DHS and DOL got
"creative" with their claim of authority after the
Eleventh Circuit affirmed the injunction against
DOL's prior H-2B regulations). The Fourth Circuit's
ruling is ripe for this Court's review.
DOL contends that finding DOL lacks
independent authority will not invalidate the 2015
DOL Rule because DHS undoubtedly possessed
rulemaking authority. Br. of Resp. 17. But the trial
court already determined that even though DHS had
rulemaking authority, DHS's participation in the
purported "joint action" says nothing about DOL's
rulemaking or adjudicative authority, which must
still flow from a statute. DHS's authority cannot
salvage DOL's regulations without implicating the
nondelegation doctrine. DHS cannot commandeer
another agency into performing under DHS's
authority, nor can it channel DOL's authority. See,
e.g., American Bus Ass'n v. Slater, 231 F.3d 1, 6 n. 1
(D.C. Cir. 2000) (one agency cannot "channel the
choices" of a coordinate agency).
Furthermore, even if certiorari is granted to
review the transformative question raised by DOL,
there is nothing to prevent this Court from
"isolat[ing]" the question of the source of DOL's
independent authority. Darr v. Burford, 339 U.S.
200, 227 (1950) (Frankfurter, J., dissenting). And
given that the constitutional issue is at least as
serious with DOL's "joint action" theory, it is as
likely or even more likely that this Court will dispose
of the case based upon whether DOL possesses
independent authority to promulgate legislative
regulations for the H-2B program.

11

CONCLUSION
The petition should be granted.

R. Wayne Pierce, Esq.

Leon R. Sequeira, Esq.

The Pierce Law Firm, LLC
133 Defense Hwy, Suite 201
Annapolis, Maryland 21401
410-573-9955
wpierce@adventurelaw.com

Counsel of Record
616 South Adams Street
Arlington, Virginia 22204
(202) 255-9023
lsequeira@lrs-law.com

Counsel for Petitioners
October 15, 2021

12

